 REPORT ON FAA’S ACTIONS TO ADDRESS
MOLD AT THE DETROIT METROPOLITAN AIR
   TRAFFIC CONTROL TOWER FACILITY
        Federal Aviation Administration

         Report Number: AV-2006-055
          Date Issued: July 11, 2006
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on FAA’s Actions To Address                Date:    July 11, 2006
           Mold at the Detroit Metropolitan Air Traffic
           Control Tower Facility
           Federal Aviation Administration
           AV-2006-055
  From:                                                           Reply to
           David A. Dobbs                                         Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) actions to address mold at the Detroit Metropolitan Air
           Traffic Control Tower facility (the Facility). The review was initiated at the
           request of several members of the Michigan congressional delegation.
           Specifically, the Members expressed concerns regarding allegations that FAA was
           not properly addressing mold issues found at the Facility and that this was causing
           air traffic controllers to become ill. A copy of the congressional request is
           included at the Appendix to this report.

           We conducted the review between February 2006 and May 2006. Our scope and
           methodology can be found at Exhibit A. Exhibit B lists the agencies we contacted
           or visited. We conducted this program audit in compliance with Generally
           Accepted Government Auditing Standards as prescribed by the Comptroller
           General of the United States.

           Our objectives were to determine whether FAA has taken effective actions to
           remediate mold growth found at the Detroit Metropolitan Air Traffic Control
           facility and prevent similar incidents from occurring in the future. We met with
           staff from several of the requesting congressional offices in May 2006 to discuss
           our results. A copy of that briefing is attached at Exhibit C.
                                                                                2



RESULTS IN BRIEF
FAA has taken actions to remove mold from the Facility but has not alleviated the
source of moisture causing its growth. Until the moisture source has been
controlled, mold will continue to be an ongoing problem. FAA is aware of this
issue and advised us that projects to address moisture and humidity problems will
begin in late July 2006 and are expected to be complete in November 2006. Those
projects include sealing and caulking the exterior of the tower to eliminate water
infiltration; additional replacement of interior wallboard; and further heating,
ventilation, and air conditioning work to manage humidity.

Completing those projects on schedule is essential to fully remediate mold at the
Facility. We are recommending that FAA provide the requesting Members of
Congress with a list of the planned actions to complete mold remediation efforts
and alleviate moisture infiltration at the Facility. We are also recommending that
FAA include the expected completion date for each project.

BACKGROUND
Mold is a common fungus that may be detected visually or by odor. It grows best
in warm, damp, or humid conditions but can survive in dry conditions. Whether
mold is dead or alive, exposure to mold may cause symptoms such as nasal
stuffiness, eye irritation, wheezing, or skin irritation in sensitive individuals.
Persons with a compromised immune system are at an increased risk.

It is not necessary to identify the type of mold or conduct sampling as mold must
be removed regardless of type. There are no Federal standards for airborne
concentrations of mold or mold spores. Air sampling provides information that is
valid only at the time the sample was taken, and results may be difficult to
interpret. Remediation includes removing mold and alleviating the source of
moisture. Until the source of moisture is controlled, remediation efforts are not
complete.

The Facility is a 12-story tower connected to a 2-story base building with a
basement that houses offices, locker rooms, a lunch room, and the Terminal Radar
Approach Control (TRACON). The elevator shaft is located in the center of the
tower and extends from the basement to the 12th floor. According to FAA, floors
3 to 10 were designed as unoccupied spaces and form the tower shaft. These areas
are unconditioned (no mechanical heating or cooling) and should not be occupied
or used for storage. There is no common ventilation ductwork from these areas to
occupied areas.
                                                                                   3


At the time of our review, there were a total of 146 employees at the Facility—
49 assigned to the tower, 62 assigned to the TRACON, and 35 assigned to the
Technical Operations area.

FINDINGS

FAA Has Taken Actions To Remove Mold at the Detroit Metropolitan
Air Traffic Control Tower but Remediation Will Not Be Complete Until
Moisture Issues Have Been Addressed

Mold was initially found in unoccupied space on the fourth and ninth floors of the
tower in September 2004. In January 2005, contractors hired by FAA removed
the mold identified on those floors but found additional mold that was outside the
scope of the contract. During the same month, mold was found in the elevator
shaft. However, the mold found in the elevator shaft was not immediately dealt
with because it was located on fire-rated drywall, which could not be removed in
sections because of safety issues.

In May 2005, FAA let another contract to remove the mold found on the third,
fourth, and ninth floors. In October 2005, FAA began monthly inspections at the
Facility. During the November 2005 inspection, additional mold was found on the
third floor (this mold was removed) and in the elevator shaft.

As a result, in February 2006, FAA hired a contractor to conduct an assessment of
mold in the elevator shaft and to develop a scope of work for remediation. The
report recommended that FAA remove the mold using a High Efficiency
Particulate Air (HEPA) vacuum and wipe the areas down with a detergent and
water solution. FAA completed those steps on May 26, 2006.

In June 2005, FAA also let another contract to identify probable causes of the
excess moisture. The report, published in August 2005, identified the contributing
factors for excess moisture as (1) water infiltration at concrete panel joints and
concrete slab edges around the exterior of the building, (2) location and placement
of interior wallboard panels, and (3) heating, ventilation, and air conditioning
(HVAC) issues.

FAA officials at the Facility told us that contracts have been let to address each of
the issues identified in the August 2005 report, and work is expected to begin at
the end of July 2006 and be complete by November 2006. According to the FAA
officials at the Facility, the late completion date is needed because the exterior
caulking is an extensive project and can only be done during warm weather.
                                                                                  4


Several Employees Have Experienced Adverse Health Effects Related
to Mold

Exposure to mold may cause symptoms such as nasal stuffiness, eye irritation,
wheezing, or skin irritation in sensitive individuals. Persons with a compromised
immune system are at an increased risk. Several employees at the Facility have
experienced adverse health affects related to mold exposure. These factors
highlight the need for FAA to aggressively pursue completion of its remediation
efforts.

As of May 2006, 5 of the 49 employees who work at the tower had filed a health
claim for workers’ compensation with the Department of Labor (DOL)—2 of
those employees have not returned to work. In March and April of 2006, DOL
accepted three of those claims—two for asthma and one for exposure to mold. Of
the two remaining claims, one was denied and one is still pending a DOL decision.

As of May 2006, 1 of the 62 employees who work in the adjoining TRACON had
filed a health claim for workers’ compensation, which is still pending a DOL
decision. None of the 35 Technical Operations employees who work in the same
building had filed for workers’ compensation.

At the request of FAA and Facility employees, three independent Federal agencies
conducted reviews at the Facility to determine if the level of mold presents a
health hazard to employees.

 • In November 2005, the Department of Health and Human Services, Centers for
   Disease Control, National Institute of Occupational Safety and Health
   (NIOSH) conducted a Health Hazard Evaluation of the Facility to determine if
   workers are exposed to hazardous materials or harmful conditions. The
   NIOSH review included an evaluation of medical records and a review of
   documents provided by FAA but did not include a site visit. In a verbal
   briefing to our office on the preliminary results, NIOSH officials stated that it
   is possible that mold exposure could have triggered some of the upper
   respiratory tract allergic-type symptoms that were reported by employees.
   However, NIOSH concluded that there is not enough mold present to pose a
   serious health hazard. As of July 2006, NIOSH had not issued a final report.

 • In February 2006, the Department of Health and Human Services, Public
   Health Services, Federal Occupational Health (FOH) office conducted an on-
   site visual inspection of the Facility, including the elevator shaft, to evaluate
   FAA’s remediation efforts and determine if the mold presented a serious health
   hazard. The FOH report stated that the air quality within the Facility is
   acceptable and that abatement activities conducted were performed properly
   and in a safe manner.
                                                                                 5


 • In March 2006, at the request of Facility employees, DOL’s Office of Safety
   and Health Administration (OSHA) conducted a site inspection at the Facility.
   On June 19, 2006, OSHA issued its final report, which recommended that FAA
   eliminate all sources of water intrusion into the Facility and maintain and
   operate outside air ventilation systems in accordance with design specifications
   to prevent infiltration of unconditioned air. OSHA also noted that individuals
   with underlying health conditions may be more sensitive to mold and
   encouraged individuals experiencing illness to seek appropriate medical
   attention.

RECOMMENDATION
We recommend that the FAA Administrator provide the requesting Members of
Congress with a list of the planned actions to complete mold remediation efforts
and alleviate moisture infiltration at the Facility and include the expected
completion date for each project. We are also requesting that the FAA
Administrator provide us with a copy of the information provided to the requesting
Members.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On May 18, 2006, we held an exit conference with the Air Traffic Manager at the
Detroit Metropolitan Air Traffic Control Tower and the Area Director, FAA
Technical Operations.     Those officials agreed with our findings and
recommendations.

ACTIONS REQUIRED
Please provide the above requested information within 15 business days.

We appreciate the cooperation and assistance provided by you and your staff
during our review. If you have any questions or need further information, please
contact me at (202) 366-0500 or Dan Raville, Program Director, at (202) 366-
1405.

                                        #


cc: FAA Deputy Administrator
    ATO Chief Operating Officer
    FAA Chief of Staff
    Anthony Williams, ABU-100
                                                                                   6



EXHIBIT A. SCOPE AND METHODOLOGY

This review was conducted in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States
and included such tests as we considered necessary to provide reasonable
assurance of detecting abuse or illegal acts. We conducted this review between
February 2006 and May 2006 using the scope and methodology described below.

To determine what actions FAA has taken to address mold at the Detroit
Metropolitan Air Traffic Control Tower facility (the Facility), we toured the
Facility on February 16, 2006, to observe the extent of remediation efforts. We
reviewed documentation and reports provided by FAA. We also conducted
interviews with FAA officials at the local (Detroit), district, regional, and service
areas and with local, regional, and national representatives from the National Air
Traffic Controllers Association (NATCA).

To determine the current status of air traffic controllers’ health claims at the
Facility, we conducted interviews with FAA representatives and with NATCA
officials at the local, regional, and national levels.       We also reviewed
documentation provided by FAA and NATCA.

To obtain a better understanding of Federal guidelines, we conducted interviews
with and reviewed documents provided by several independent Federal agencies,
including the Environmental Protection Agency, Indoor Environments Division;
the Occupational Safety and Health Administration; the U.S. Department of
Health and Human Services, Centers for Disease Control, National Institute of
Occupational Safety and Health; and Public Health Services, Federal Occupational
Health (FOH).

We did not rely on automated databases as part of this audit.




Exhibit A. Scope and Methodology
                                                                             7



EXHIBIT B. AGENCIES VISITED OR CONTACTED


• FAA Air Traffic Control—Detroit Metropolitan Air Traffic Control Tower

• FAA Technical Operations—Detroit Metropolitan Air Traffic Control Tower,
  Superior District Safety Management Office, and Central Service Area
  Headquarters

• National Air Traffic Controllers Association—Detroit Metropolitan Air Traffic
  Control Tower, Great Lakes Region, and Washington National Headquarters

• Environmental Protection Agency—Indoor Environments Division

• U.S. Department of Labor, Occupational Safety and Health Administration

• U.S. Department of Health and Human Services, Centers for Disease Control,
  National Institute of Occupational Safety and Health

• U.S. Department of Health and Human Services, Public Health Services,
  Federal Occupational Health (FOH)




Exhibit B. Agencies Visited or Contacted
                                                                                                                 8



EXHIBIT C. OIG BRIEFING TO CONGRESSIONAL STAFF



               Review of FAA Actions To Address
                          Mold at the
                Detroit Metropolitan Air Traffic
                    Control Tower (DTW)




                                             May 25, 2006
                                     Project Number 06A3007A000

                                                                                                             1




         Objectives

         The OIG received a letter dated January 9, 2006, from the following 6 Congressmen and 2 Senators:

         Congressman John D. Dingell                              Senator Carl Levin
         Congresswoman Carolyn C. Kilpatrick                      Senator Debbie Stabenow
         Congressman Sander Levin
         Congressman John Conyers, Jr.
         Congressman Joe Schwarz, M.D.
         Congressman Thaddeus G. McCotter

         The OIG’s objective was to respond to the following questions posed in the congressional letter:

         • Has a proper and complete mold inspection and remediation been conducted at the facility, including
           direct sampling, air sampling, and physical intrusive inspecting?
         • Has remediation occurred in the elevator shaft of the air traffic control tower?
         • If remediation efforts have been concluded, why are air traffic controllers continuing to fall ill?




                                                                                                             2




Exhibit C. OIG Briefing to Congressional Staff
                                                                                                                     9




          Methodology
        • On February 16, 2006, we visited Detroit Metropolitan Air Traffic Control Tower (DTW). As part of
          our visit, we toured the facility to determine the extent of remediation efforts.
        • We also conducted interviews with officials from the following organizations:
           ° Environmental Protection Agency (EPA), Indoor Environments Division
           ° Occupational Safety and Health Administration (OSHA), Lansing, Michigan
           ° U.S. Department of Health and Human Services
                  Center for Disease Control (CDC), National Institute of Occupational Safety and Health
                   (NIOSH)
                  Public Health Service (PHS), Federal Occupational Health (FOH)
           ° U.S. Department of Transportation, Federal Aviation Administration (FAA)
                  Technical Operations – Detroit Metropolitan Air Traffic Control Tower, District Office,
                   Great Lakes Region, and Central Service Area
                  Detroit Metropolitan Air Traffic Control Tower
           ° National Air Traffic Controllers Association (NATCA) - Detroit Metropolitan Air Traffic Control
               Tower, Great Lakes Region, and Washington Headquarters
        • We reviewed documentation and reports provided by FAA and the controllers’ union, NATCA.




                                                                                                            3




          Results in Brief
       Has a proper and complete mold inspection and remediation been conducted at the facility, including
       direct sampling, air sampling, and physical intrusive inspecting?

             • Remediation has not been completed at DTW, as moisture issues have not been resolved.
             • Mold found in unoccupied space on the third, fourth, and ninth floors and in the elevator shaft has
               been removed. Monthly inspections are being conducted to document the physical condition and
               identify any additional moisture or mold issues.
             • All projects to address identified moisture and humidity issues are planned for completion by late
               November 2006. This is the most important step FAA needs to complete to alleviate any future
               mold problems.
             • According to OSHA, NIOSH, CDC, and EPA, it is not necessary to identify the type of mold or
               conduct sampling as mold must be removed regardless of type. Furthermore, there are no Federal
               standards for airborne concentrations of mold or mold spores.

       Has remediation occurred in the elevator shaft of the air traffic control tower?

             • Remediation of mold identified in the elevator shaft was completed on May 25, 2006.


                                                                                                            4




Exhibit C. OIG Briefing to Congressional Staff
                                                                                                                      10




           Results in Brief (continued)
       If remediation efforts have been concluded, why are air traffic controllers continuing to fall ill?

       As stated earlier, remediation efforts have not been completed. The following is the status of health claims
       at DTW as of May 25, 2006:

           • 5 of 49 (10%) employees who work in the control tower at DTW have filed a workers’
              compensation claim with the Department of Labor — 3 of the 5 have returned to work.
           • 1 of 62 (2%) employees who work in the adjoining Terminal Radar Approach Control facility
              (TRACON) has filed a workers’ compensation claim with the Department of Labor.
           • None of the 35 employees who work in Technical Operations at the tower have filed a workers’
              compensation claim.
           • Of the six claims for workers’ compensation, three were approved, one was denied, and two are
              pending.




                                                                                                             5




          Background: Mold Basics
       OSHA, NIOSH, CDC, and EPA provided the following information regarding mold:

           • Mold is a fungus that is found everywhere. It grows best in warm, damp, or humid conditions but
             can survive in dry conditions.
           • Mold itself is not toxic or poisonous, though it can produce mycotoxins. Almost all of the known
             effects of mycotoxin exposures are attributable to ingestion of large amounts of contaminated food.
             No conclusive evidence exists to link exposure to indoor airborne mycotoxins with human illness.
           • Whether mold is dead or alive, exposure to mold may cause symptoms such as nasal stuffiness, eye
             irritation, wheezing, or skin irritation in sensitive individuals. Persons with a compromised immune
             system are at an increased risk.
           • Mold may be detected visually or by odor. It is not necessary to identify the type of mold or conduct
             sampling as mold must be removed regardless of type.
           • Air sampling provides information only for the moment in time when the sample was taken, and
             results may be difficult to interpret. There are no Federal standards for airborne concentrations of
             mold or mold spores.
           • Remediation is complete when the moisture source is identified/controlled and visible mold is
             removed.


                                                                                                              6




Exhibit C. OIG Briefing to Congressional Staff
                                                                                      11




         Background: DTW Layout
         • DTW is a 12-story tower connected to a 2-story base
           building with a basement. The elevator shaft is located
           in the center of the tower and extends from the
           basement to the 12th floor. Stairs are used to obtain
           access to the cab from the 12th floor.
         • The first and second floors contain offices, a
           lunchroom, locker rooms, and the TRACON. A
           hallway connects the tower with the TRACON.
         • According to FAA, floors 3 through 10 were designed
           as unoccupied spaces and form the tower shaft. These
           areas are unconditioned (no mechanical heating or
           cooling) and should not be occupied or used for storage.
           There is no common ventilation ductwork from these
           areas to occupied areas.
         • Floors 11 and 12 are occupied and conditioned spaces.
         • The tower cab, located above the 12th floor, is a
           conditioned space with an exterior catwalk.




                                                                                  7




         Is remediation of mold at DTW complete?
         What actions has FAA taken?
        Remediation at DTW is not complete.
        Mold was found in unoccupied space on the third, fourth, and ninth
        floors as well as on the walls of the elevator shaft. In order for
        remediation to be complete, moisture sources must be addressed and
        mold must be removed. FAA has taken actions to remove visible mold
        on the three floors and in the elevator shaft, but has not completed
        projects to address the source of moisture. Actions taken by FAA
        include:

           • January 2005 – Limited areas of moldy gypsum wallboard were
             removed on the fourth and ninth floors. Additional mold was
             discovered and was not removed as it was not in the statement of
             work. This work was accomplished in the May 2005
             remediation.
           • May 2005 – Remediation was conducted on the 3rd, 4th, and 9th
             floors to include a total of 110 total square feet of wallboard
             material. This work included remediation of additional mold
             found during the January 2005 remediation. The photo at right
             depicts the ninth floor gypsum wallboard remediation work.
           • June 2005 – A moisture assessment was conducted by an FAA
             contractor to identify probable causes of excess moisture. The
             Moisture Assessment Report stated that contributing factors to
             moisture issues may be location and placement of gypsum
             wallboard panels, water infiltration at concrete panel joints, and
             water penetration of the concrete slab edges.

                                                                                  8




Exhibit C. OIG Briefing to Congressional Staff
                                                                                                             12



         Is remediation of mold at DTW complete?
         What actions has FAA taken? (continued)

         • January 2006 – Remediation was conducted on the
          third floor in response to mold identified during the
          November monthly moisture inspection. The photo at
          right depicts this completed remediation that replaced
          the lower two feet of gypsum wallboard from the wall
          bordering the elevator shaft.
         • February 2006 – In early February, a visual
          assessment of the control tower elevator shaft was
          conducted by FAA engineers, the Southwest Area
          Program Manager from Federal Occupational Health
          (FOH), and two independent Certified Industrial
          Hygienists contracted by the FAA. The purpose was
          to assess visible mold growth so that FAA could
          develop a scope of work for the elevator shaft
          remediation.
              ° The FOH representative stated in the final
                 report dated May 9, 2006, that DTW is “one of
                 the cleanest FAA facilities FOH has inspected
                 to date.” The report also stated that mold
                 within the elevator shaft is minimal and HEPA
                 vacuuming was recommended to remove it.


                                                                                                        9




         Is remediation of mold at DTW complete?
         What actions has FAA taken? (continued)

                 ° The independent Certified Industrial Hygienist contracted by the FAA stated in a report
                   dated March 10, 2006, that there were isolated patches of visible mold growth of three
                   square feet or less on seven floors of the elevator shaft that could be removed by HEPA
                   vacuuming and wipe-down.
                 ° In late February, the FAA engineering team conducted another on-site assessment of the
                   tower to identify actions necessary to prevent water infiltration and moisture
                   condensation. In response, the engineering team developed a schedule of projects
                   targeted for completion by the end of November 2006.

         • March 2006 – A team from OSHA conducted an on-site review of conditions at DTW in response
          to an employee complaint. The report of OSHA’s review has not yet been released.

         • May 2006 – Remediation of the elevator shaft was conducted by HEPA vacuuming and damp wipe-
          down with detergent and water.




                                                                                                       10




Exhibit C. OIG Briefing to Congressional Staff
                                                                                                               13




        What was the condition of the elevator shaft?

         Several inspections of the elevator shaft have been conducted:

              • June 2005 – An FAA contractor conducted a Moisture Assessment and reported that the
                visual inspection revealed minor surface mold growth on the interior shaft-liner at levels
                6 through 9.
              • February 2006 – Three parties (2 FAA contractors and an FOH official) inspected the
                elevator shaft. The official from the FOH’s Public Health Service noted that there were
                small areas of visible mold in the elevator shaft that have not yet been remediated. One
                of the contractors reported that there were isolated patches of visible mold growth on the
                elevator shaft walls on seven various floors (3, 5, 6, 7, 8, 9, and 11) measuring less than
                three square feet.
              • October 2006 – As part of monthly facility inspections led by an FAA Technical
                Operations Supervisor, a team rides in the cab of the elevator and inspects the interior of
                the elevator shaft by peering through a hatch in the roof of the elevator cab.
              • May 2006 – Mold in the elevator shaft was remediated by HEPA vacuuming and damp
                wipe-down with detergent and water. FAA continues to conduct monthly moisture
                inspections of the facility (including the elevator shaft) to identify mold or moisture
                issues.




                                                                                                          11




        What did the mold in the elevator shaft look
        like?
       • Top Left: Spots of
         visible mold growth
         on east wall of shaft
         of the third floor.
       • Top Right: Visible
         mold growth on
         shaft on west wall
         of seventh floor.
       • Bottom Left:
         Visible mold
         growth on shaft on
         west wall of eighth
         floor.
       • Bottom Right:
         Visible mold
         growth on east wall
         of shaft of sixth
         floor.



                                                                                                          12




Exhibit C. OIG Briefing to Congressional Staff
                                                                                                          14



        What additional actions are planned by FAA to
        address mold and moisture issues at DTW?
         Mold identified at DTW has been removed, but projects to address moisture and humidity
         issues have not been completed. The facility conducts monthly moisture inspections to
         identify mold or moisture issues. The FAA has planned several projects to address moisture
         and humidity issues. These are the key steps FAA needs to complete so that water infiltration
         does not reoccur:
         • July - October 2006 - Exterior sealing and caulking to eliminate water infiltration.
         • August - September 2006 - Interior work that may include removal of walls/wallboard and
           changes to accommodate HVAC duct modifications if needed.
         • August - November 2006 - Mechanical/electrical work including HVAC
           (Heating/Ventilation/Air Conditioning) work to control and manage humidity within the tower
           and elevator shafts.

          Pictured:
          Near right - Exterior
          caulking failure.
          Far right - Moisture
          seeping into
          unoccupied space in the
          tower from the exterior
          wall.

                                                                                                     13




         What is the status of the health of employees
         working at DTW?
         As noted in the chart below, as of May 25, 2006, 5 of the 49 employees who work in the
         control tower have filed a health claim for workers’ compensation (2 of whom have not
         returned to work), 1 of the 62 employees who work in the TRACON have filed a health claim
         for workers’ compensation, and none of the 35 Technical Operations employees who work in
         the building have filed for workers’ compensation.

                                    DTW/TRACON/Technical Operations Statistics
                                             (As of May 25, 2006)

                     Workgroup         Employees*           Filed Workers’   Have Not Returned
                                                            Compensation        to Work
                DTW                         49                   5 (10%)           2 (4%)

                Detroit TRACON              62                   1 (2%)            1 (2%)

                Detroit Tech Ops            35                   0 (0%)            0 (0%)

                Total                      146                   6 (4%)           3 (2%)

                                           *excludes administrative staff


                                                                                                     14




Exhibit C. OIG Briefing to Congressional Staff
                                                                                                                 15



         What is the status of the health of employees
         working at DTW? (continued)
         The following tables provide additional details on the five employees at the tower and one
         employee at the TRACON who filed for workers’ compensation:

          Tower         Date Claim Filed      Dates Controller Was Out of Work     Did the Department of
         Controller                                                                  Labor Accept the
                                                                                           Claim?
            #1        September 30, 2005   October 1, 2005 to present              Yes, for Asthma, March
                                                                                   28, 2006
            #2        September 27, 2005   October 1, 2005 to November 12, 2005    Yes, for Asthma, April
                                                                                   18, 2006
            #3        September 8, 2005    July 26, 2005 to present                Yes, for Exposure to
                                                                                   Mold, April 14, 2006
            #4        December 29, 2005    December 14, 2005 to January 31, 2006   No, Denied
            #5        January 17, 2006     December 19, 2005 to January 29, 2006   Pending

        TRACON        Date Claim Filed      Dates Controller Was Out of Work       Did the Department of
        Controller                                                                   Labor Accept the
                                                                                           Claim?
             #1       April 26, 2006        February 19, 2006 to present           Pending

                                                                                                            15




        Does mold pose a serious health hazard at
        DTW?
       According to officials at two Federal agencies, conditions at DTW do not pose a serious
       health hazard to employees:

         • November 2005 — NIOSH began conducting a Health Hazard Evaluation of DTW, including
           a review of medical records. The medical doctor on the NIOSH team stated that it is possible
           that mold exposure could have triggered some of the upper respiratory tract allergic-type
           symptoms that were reported by controllers but stated that the claims of actual occupational
           illness or disease due to mold exposure are not supported by the conditions at the tower.
           NIOSH concluded that there is not enough mold present to pose a serious health hazard.
         • February 2006 — FOH conducted a health assessment of the tower and stated that there is
           not enough mold to produce an affect on someone’s health unless the person has a
           compromised immune system or allergic sensitivity to mold. FOH stated that the only mold
           at DTW was a small amount of dry mold in the elevator shaft.
         • March 2006 — OSHA conducted a site inspection although the elevator shaft could not be
           observed because it could not be taken out of service at the time of the OSHA inspection. As
           of May 25, 2006, OSHA has not released a final report of its assessment to determine if the
           level of mold at DTW presents a serious health hazard.




                                                                                                            16




Exhibit C. OIG Briefing to Congressional Staff
                                                                                                            16




         Conclusions

        As of May 25, 2006:
        • Remediation is not complete at Detroit Metropolitan Air Traffic Control tower because moisture
          infiltration and humidity issues have not been corrected.

        • All projects planned to eliminate the moisture are estimated to be completed by the end of
          November 2006.

        • Of the 49 employees working in the tower at DTW, 5 have filed workers’ compensation claims
          with the Department of Labor, of which 3 have been accepted; 1 has been denied; and 1 is
          pending. Two of the 5 employees who filed workers’ compensation claims remain out of work.

        • Of the 62 employees working in the TRACON adjoining DTW, 1 has filed a workers’
          compensation claim with the Department of Labor. The claim is pending.

        • None of the 35 Technical Operations employees have filed a workers’ compensation claim.




                                                                                                       17




Exhibit C. OIG Briefing to Congressional Staff
                                                17




APPENDIX. CONGRESSIONAL REQUEST LETTER TO OIG




Appendix. Congressional Request Letter to OIG
                                                18




Appendix. Congressional Request Letter to OIG
